             INSPECTOR GENERAL




•
              UNITED STATES INTERNATIONAL TRADE COMMISSION

                                      WASHINGTON, D.C. 20436

    April 30, 1996


                                 REVIEW OF BUILDING SECURITY


    The bombing of the Murrah Federal Building in Oklahoma City heightened concern
    nationwide for the security of the federal workplace. The General Services Administration
    (GSA) initiated a comprehensive review of security measures in federally occupied
    buildings and the Justice Department made an assessment of the vulnerability of federal
    facilities to terrorism. A Presidential memorandum issued on June 28, 1995, directed all
    executive agencies to immediately begin upgrading their facilities to meet the
    recommended minimum security standards, to the extent possible within currently available
    funding.

    The overall objectives of this review were to (1) evaluate the Commission's administration
    and control of building security and determine if the actions agreed upon by management
    in response to prior recommendations have been implemented and effectively address the
    findings, (2) evaluate overall effectiveness of the Commission's building security program,
    and (3) test compliance with the GSA regulations and Commission policies.

    This review was conducted by Dembo, Jones, Healy, Pennington & Ahalt, P.C. in
    accordance with the Government Auditing Standards issued by the Comptroller General of
    the United States. The auditors expressed an opinion that the Commission has an
    effective building security program. However, they found several deficient areas that need
    improvement or require modification in order for the Commission to be in compliance with
    standards set by the Department of Justice or to otherwise provide adequate security. The
    specific findings are set forth below.

    Perimeter Security

           -- The Commission has no control of parking in the building or parking adjacent to
           the building.

           -- There are no perimeter cameras at the building, other than a loading dock camera
           that shows only a partial view of that area.

           -- Outside lighting does not meet GSA regulations.
Entry Security

       -- The current practice for shipping and receiving from the loading dock allows entry
       without notification of the guards.

       -- Commission personnel have 24-hour access to the building, even when guards
       are not on duty.

       -- At the public entrance to the buildinq, there is no magnetometer located within
       the lobby area, nor is there an x-ray machine either in the lobby or the mail room.

       -- A Commission night drop off-box and Federal Express drop-off box are located
       next to the lobby.

       -- Indoor cameras do not cover a large enough area of view in some cases.

       -- Signs advising of 24-hour surveillance are not posted in conspicuous areas as
       required.

       -- The lock on the mail room door was not in good working order.

Interior Security

       -- Temporary visitors do not sign out and return their badges upon leaving.

Security Planning

       -- Cleaning staff do not have background security checks and have unwarranted
       access to sensitive areas.

       -- Mylar film is not currently on all exterior windows as required.

Recommendations addressing these findings are presented throughout the report.

The Acting Director of the Office of Administration agreed with the findings and
recommendations, although he could not provide an estimate of when he could implement
the recommendations because the timing depends upon action taken by GSA to provide
necessary funds. His comments are presented in their entirety as an appendix to this
report.




                                          l~~fI:
                                            Inspector General
                                                                                                      Martin S. Dembo, CPA (Ret.)
      Dembo, Jones, Healy, Pennington & Ahalt, P.C.                                                   William C. Pennington, CPA (Ret.)
      CERTIFIED PUBLIC ACCOUNTANTS AND CONSULTANTS                                                    Stanley R. Jones, CPA
                                                                                                      Joseph T. Healy, Jr., CPA
                                                                                                      Walter C. Pennington, CPA
•                                                                                                     O. Daniel Ahalt, CPA
                                                                                                      Donald K. Marshall, CPA
    October 31, 1995                                                                                  Susan M. Ragland, CPA
                                                                                                      Carol O. McGarry, CPA
                                                                                                      Jeffrey B. Whipple, CPA

                                                                                                      Robert J. Tyrrell
    Ms. Jane E. Altenhofen                                                                            Michael R. Mason

    Inspector General
    United States International Trade Commission
    500 E Street, SW
    Washington, D.C. 20436

    Dear Ms. Altenhofen:

    We have reviewed the United States International Trade Commission's (the Commission or ITC)
    current security policies and procedures. Our overall objectives for this review were to
    (1) evaluate the Commission's administration and control of building security and to determine
    if the actions agreed upon by management in response to prior recommendations have been
    implemented and if they effectively address the findings, (2) evaluate the overall effectiveness
    of the Commission's building security program, and (3) test compliance with the General Services
    Administration (GSA) regulations and Commission policies.

    Our work was conducted in accordance with the 1994 Revision of the Government Auditing
    Standards promulgated by the Comptroller General of the United States, and all other relevant
    Federal government accounting and auditing regulations.

    Based on our review, we are of the opinion that ITC has an effective building security program
    in place. However, our report addresses several deficient areas that need improvement or require
    modification. A Department of Justice report and Presidential memorandum issued on June 28,
    1995 provide ITC an opportunity to obtain additional funding to bring the ITC into compliance
    with the standards set by the Department of Justice. Our review results are described in detail
    in the accompanying report. Pictures of various areas of the building are attached to our report.

    Very truly yours,

    Dembo, Jones, Healy, Pennington & Ahalt, P.C.



                ./"~~1
    By:     L/~£
             "
            . \.. ~
                  /J . /
          Donald K. Marshall, CPA
                                             Ck/'           .




              7250 Woodmont Avenue • Suite 300 • Bethesda, Maryland 20814 • 301/718-0900 • Fax 301/718-8822
              MEMBER: AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS AND ASSOCIATED REGIONAL ACCOUNTING FIRMS
                     REPORT ON THE REVIEW OF THE
            UNITED STATES INTERNATIONAL TRADE COMMISSION'S
              CURRENT SECURITY POLICIES AND PROCEDURES



INTRODUCTION

The General Services Administration has conducted security reviews at ITC in the past, and
the Department of Justice has recently issued a report entitled "Vulnerability Assessment of
Federal Facilities."

The bombing of the Murrah Federal Building in Oklahoma City, Oklahoma has increased the
security awareness within the Government sector. Our review takes into account the present
security, and evaluates the vulnerability of the site and related risk factors.

This review was conducted by Dembo, Jones, Healy, Pennington & Ahalt, P.C., with the
assistance of their subcontractor security specialists Mr. Kenneth Todd, Mr. Leonard Kraus,
and Mr. Leonard Mols of the Technical Security Group, Omnisec International, 8000 West
Park Drive, McLean, VA 22102.

SCOPE

We conducted our review at ITC headquarters in Washington, D.C. from September 1, 1995
to October 31, 1995. We conducted numerous discussions with senior administrative and ITC
security personnel, security guards, departmental personnel, parking attendants and building
management representatives.

We observed the effectiveness of the day-to-day functioning of the security in effect during
our review period and tested several components of the system.

METHODOLOGY

We gathered data for our review through interviews, observations and analyses of policies,
documents and reports that are relevant to the security policies and procedures at ITC.

The major documents and policies we used in our review included:

a.     Office of Inspector General (OIG), "Review of USITC's Information Security Program,"
       Report No. IG-07-90, dated September 28, 1990

b.     OIG, "Review of USlTC's Local Area Network Administration and Controls," Report No.
       IG-04-92, dated September 1992

c.     USITC Directive 1022.1, "Office of Management Services, Missions and Functions
       Statements," dated October 31, 1988



                                             1
d.     General Services Administration (GSA) Regulations pertaining to physical security

e.     ITC Policies pertaining to physical security

f.     U.S. Department of Justice, "Vulnerability Assessment of Federal Facilities," June 28,
       1995

g.     GSA, Office of Physical Security and Law Enforcement "Physical Security Survey," dated
       February 22, 1993

h.     Administrative Notice #ITC-N-1305, "Improved Physical Security at the U.S. International
       Trade Commission," dated April 24, 1990, and amended February 18, 1992

i.     lTC's contract with Security Guards

j.     lTC's emergency occupant evacuation plan

k.     lTC's procedures concerning "Kastle" keys

1.     lTC's policy regarding parking areas (to include loading dock area)

m.     lTC's Rules of Practice and Procedure

n.     GSA, Office of Physical Security and Law Enforcement "Physical Security Survey", dated
       June 30, 1995.

SITE DESCRIPTION

The building is located at 500 E Street, SW; Washington, D.C. The main entrance to the
building is from E Street, which is the north side of the building. The south side of the building
faces the Southwest Freeway, which is approximately 10-20 feet away. The east side of the
building is located directly next to a vacant lot used for commercial parking. The vacant lot
extends to 4th Street, SW. The west side of the building is separated from 6th Street, SW by
a small grassy area.

The building was built in 1987, using reinforced concrete and glass. The building is comprised
of nine stories of office space and five levels of underground parking. There are currently no
physical barriers outside the building.

The International Trade Commission occupies floors one through seven, with the eighth and ninth
floors comprised of commercial tenants. Normal business hours for ITC are from 8:45 am to
5:15 pm Monday through Friday.

SECURITY OVERVIEW

The perimeter of the building has five emergency exits, including 2 loading docks. Perimeter
Security is maintained by Boston Properties, 500 E Street, SW. The perimeter security system


                                                2
consists of magnetic contacts on all doors, and a camera pointed at the loading dock doors. The
security system is monitored by Kastle Security Inc.

Of the six entry/exit points of the building, only one is used for normal pedestrian traffic, which
is the E Street entrance. The other five doors are exit only or under the control of the guard
force. For example, the loading dock doors must be disarmed by the guard force before opening.
In addition, the roof has two openings that are monitored via the Kastle monitoring system.

Access within the building is controlled by Kastle Systems, through the use of the Kastle encoded
keys. There are control points from the stairwells into the suites, as well as controlled areas
within the suites, and from each of the elevator lobbies. The Kastle keys for the commercial
tenants on the upper floors will not allow access in ITC controlled space and vice versa.

Entry to the building is through the E Street entrance, at which point visitors either take the
elevators directly ahead, for the commercial tenants, or proceed to the right, where they are
checked in by the guard, asked to show identification and given a visitor's badge. After visitors
are checked in, the party that they are visiting is called by the guard, so that the visitor is met
when exiting the elevator lobby at hisfher destination. Couriers must present identification (ID)
and log in at the guard booth, prior to being issued a temporary visitor's badge. Couriers have
unescorted access to eight locations.

Access to the building can be gained by employees via the stairwells leading from the parking
garage. Kastle keys are coded to allow employees access to their respective ITC or commercial
spaces.

The guard post in the lobby is equipped with two CCTV monitors and a switcher for viewing
pictures transmitted by the twelve cameras installed in the building. The control for the lobby
door is also located in the guard booth.

SECURITY SYSTEMS

Kastle Systems is responsible for monitoring the security alarms at ITC. Each door that has a
Kastle reader also is wired for alarms to sound, whether propped open, or forced open. Other
doors, such as the perimeter exits, have a magnetic contact switch which detects unauthorized
entry/exit. There are also duress alarms installed within ITC space, which are also monitored by
Kastle.

Alarms for the individual suites are armed/disarmed from within using a Medeco key that
controls each individual suite. These alarms can be used 24 hours a day, which would require
anyone who wants to enter to use their Kastle key, or they may be put on bypass during business
hours, which allows access to anyone wishing to enter.

CCTV SYSTEM

The CCTV system consists of twelve cameras mounted throughout the building. The areas
covered are monitored in two locations: at the first floor guard booth and in the ITC Facility
Support Division. Each location is equipped with two monitors and a twelve-position switcher


                                                3
for controlling the views displayed. The activity is also recorded using a Beta format, time-lapse
VCR.

EMPLOYEE AND VISITOR IDENTIFICATION SYSTEM

All employees of the ITC are issued pennanent photo In badges, after their security clearance
is in place. Visitors and new employees prior to receiving their clearance, are issued temporary
badges, which vary in color from day to day. Anyone wishing to access ITC controlled space
must present their In to the guard prior to entering the controlled area. Tenants of the
commercial floors have no security ID system in place.

SECURITY CLASSIFICATION

The building is considered a Level IV building as described in the Department of Justice study
entitled "Vulnerability Assessment of Federal Facilities", dated June 28, 1995. A memorandum
from President Clinton for Executive Departments and Agencies, dated June 28, 1995, directed
each Federal facility to, "where feasible, be upgraded to the minimum security standards
recommended for its security level by the Department of Justice Study". Our report addresses
the Department of Justice recommended minimum security standards for the ITC building.

The Presidents memorandum directed agencies to submit requests to GSA concerning their
funding needs in order to comply with the minimum security standards. The ITC Office of
Administration submitted a request to GSA on September 21, 1995. Our report cites the areas
in which funding was requested.


                 FINDINGS, RECOMMENDATIONS AND COMMENTS

I.     Perimeter Security

       Parking: There is no control of parking in the building or parking adjacent to the
       building. The parking concession, both in the building and on the empty lot on the 4th
       Street side of the building, is operated by Colonial Parking Inc. The vacant lot being
       leased by Colonial is owned by a local corporation. There are twelve parking passes for
       the underground parking held by ITC for use by employees on an as needed basis. Also,
       some of the ITC employees have their own parking passes and deal directly with Colonial
       Parking. This allows them 24-hour access to the parking garage. The Department of
       Justice report sets control of facility parking as a minimum standard.

       Comments: Since the building and adjacent lot are not owned by the Government,
       additional parking control would have to be negotiated between ITC and the owners of
       the building. It would be desirable to have the access system for the garage monitored
       by Kastle Systems or a similar central station setup, which would establish some
       accountability concerning the parking situation. Lack of control over parking facilities
       is currently being reviewed by GSA for all Federal facilities. A funding request was
       made to GSA on September 21, 1995 in order to lease the entire underground garage.



                                                4
      CCTV Monitoring: There are no perimeter CCTV cameras at the ITC building, other
      than a loading dock camera that shows only a partial view of that area.

      Recommendation: Perimeter CCTV cameras are required as a minimum for Level IV
      buildings. High resolution outdoor cameras with pan/tilt and zoom features should be
      installed on the rooftop. Pan/tilt zoom controls should be installed at the lobby guard post
      and the Facilities Management location. The trees in front of the building may need to
      be trimmed so as not to obstruct the view of the cameras.

      The CCTV system may be color or black and white. Either system should be a high
      resolution type to compensate for the lack of lighting in front of the building. The
      loading dock area should be in full view at all times. The present camera view of the
      loading dock is inadequate. The camera(s) for the front of the building should be
      mounted on the roof or on poles at ground level.

      Funding for CCTV pan/tilt equipment was requested from the GSA on September 21,
      1995.

      Lighting and Recommendation: Emergency power for the building is provided by a
      stand-by generator.

      Outside lighting should be two foot candle per GSA regulations. GSA determined that
      the lighting did not meet the regulations. This needs to be addressed with the landlord
      and corrected.

      Physical Barriers: There are no physical barriers outside of the building at this time.
      Given the surrounding area, physical barriers are not considered essential to overall
      building security. The setback of the building from the street and surrounding properties
      prohibits any type of extended buildout for security purposes.

II.   Entry Security

      Shipping and Receiving: The current policy for shipping and receiving is as follows:

      The delivery driver backs up to the loading dock on the east side of the building. After
      parking, the driver can go to the intercom and dial either the mail room or Facilities
      Management, to indicate his shipment and the receiving party. There is a CCTV camera
      on the loading dock, but it is aimed only at the outside of the double doors leading from
      the dock. Essentially, the security guard has no way of knowing that there is a driver
      at the dock. The loading dock doors have an audible alarm, which sounds in the hallway
      area when the doors are opened without authorization from the guards. Kastle notifies
      ITC when the door alarms are triggered.

      As witnessed during a visit to the site, one delivery in particular was for the landlord's
      building operations group. One of the landlord's engineers disabled the audible alarm on
      the loading dock doors, without notifying the guards, and proceeded to direct the driver
      as to the delivery of the shipment.


                                               5
Recommendation: The modified policy for shipping and receiving should be as follows:

The guard should be able to see a delivery truck approaching the dock by means of the
perimeter CCTV camera which should be installed to cover the driveway area. After
parking the truck, the driver should be able to contact the guard desk, at which time the
roving guard will be dispatched to the dock area. After arriving at the dock area, the
guard will disable the audible alarm and open the double doors to the dock. The driver
should then be directed to his destination by the roving guard, who will watch over the
area as long as the loading dock doors are open. After the delivery is completed, the
guard should ensure that the doors are secured and the audible alarm is activated.

Access Control: The requirements for the security guards are as follows:

A guard is required at the main entrance, to monitor the access to the ITe area. The
guard checks that all ITC personnel display their ID badge, and is also responsible for
visitors, by logging and issuing temporary visitor badges. This position also monitors the
CCTV system, watching for any activity that may need a response.

A guard is required to be able to respond to any part of the building, should
circumstances dictate. The guard is also responsible for conducting routine rounds of the
building on a regular basis. This position is critical during normal business hours. The
hours for the roving guard should correspond with the opening and closing of the building
for daily business.

At present, the guards are on duty in the building from 7:30 am through 7:30 pm.

The Intrusion Detection System (IDS) is maintained and monitored by Kastle Systems.
The system consists of magnetic contacts on all perimeter doors, as well as all doors
within the building that are connected to the Kastle Access Control System. During
normal business hours, no alarms are generated within the ITC space.

Recommendation: Access control can be strengthened by limiting access to the building
after normal work hours. For instance, personnel that should have no reason to enter the
building after the security guard hours could have their Kastle keys coded to prohibit
entrance into the building.

EntranceslExits: At the public entrance to the building, there is no magnetometer located
within the lobby area. There also is no x-ray machine, either in the lobby or the mail
room.

At present there is no policy or procedure for the screening of incoming mail and
packages in the mail room. Per minimum Department of Justice security standards, x-ray
screening of mail and packages is required. A funding request has been given to GSA
for an X-ray machine. The issue of examining commercial space packages needs to be
addressed with the landlord also. A metal detector for the main entrance of ITC space
has also been requested.



                                        6
       A night drop-off box is located next to the lobby area. This is used to deposit deliveries
       after offices are closed. We recommend elimination of this area as a drop-off box. All
       deliveries should be brought to the mail room and then put through an x-ray machine.
       The Federal Express drop off box should also be moved to a location that provides for
       better control.

       Indoor CCTV cameras do not cover a large enough area of view in some cases. This
       situation can be remedied by a wider angle lens, relocating the camera, or adding an
       additional camera. The lobby camera does not deliver a distinct image that would be
       easily identifiable, due to the fact that the camera is pointing directly at the changing light
       outside. We recommend that this camera be relocated for more effective results. The
       twelve-position switcher should be replaced with a video matrix switcher for more
       effective recording of all CCTV cameras. Signs advising of 24-hour surveillance should
       be posted in conspicuous areas. Such signs are a requirement in the Department of
       Justice report. Signs indicating that persons and packages are subject to searches should
       be placed in ITC leased areas.

       High Security Locks: The locks used within the building are of the high security variety.
       Most of the locks were in good working order, with one exception, the lock on the mail
       room door. All locks were of a higher grade than average comrnerciallocks. The lock
       in the mail room should be repaired.

III.   Interior Security

       Employee/Visitor Identification: Employees at the ITC are required to wear a photo ID
       at all times as part of the security program. This is a requirement of the Department of
       Justice. As witnessed, most of the employees were wearing their photo ill in a
       conspicuous location above the waist, with a few exceptions. Visitors to the ITC facility
       are required to show a photo ID of some sort and sign the log. They are then issued a
       temporary visitor badge, which varies in color according to the day of the week. The
       visitor badge system has some weaknesses in that some visitors do not sign out and return
       their badges upon leaving. There were a number of visitor badges stuck to the street
       signs outside the building, which were left there by the couriers. Some of the couriers
       will take these and try to use them to gain access to the building without signing the
       visitors log. During one visit to the site, we witnessed the guard at Post 1 challenge a
       courier who said that he had signed in earlier, had a visitor badge, and most likely was
       trying to save himself some time. The guard asked him where he signed in earlier that
       day, the courier could not find "his" name. The courier eventually relented and signed
       in with a proper photo ill. The guard force is very aware of these types of situations and
       takes extra steps to make sure that each and every visitor signs the log properly. We
       recommend that policies be reinforced to require temporary badges be returned to the
       security desk and have the visitor sign out when the visitor is leaving the building at the
       end of the day.

       Utilities: The utility areas in the building are under the control of the building operating
       personnel. These areas are secured and require a key to gain access. Outside access to
       utilities entering the building is not possible.


                                                 7
       Occupant Emergency Plans: There is an Occupant Emergency Plan in place.

       Daycare Centers: There are no daycare facilities in the ITC space.

IV.    Security Planning

       Intelligence Sharing: Intelligence sharing is accomplished by liaison with the Federal
       Protective Service (FPS), District of Columbia Police, and other Government agencies on
       an as-needed basis.

       Training: There are security awareness days conducted at the ITC building at least once
       a year. These programs are conducted with assistance from GSA security personnel.

       Administrative Procedures: There is a flexible work schedule in place within the Ire
       facility. Employees can avail themselves of ITC controlled parking passes, which allows
       them to park in the underground garage if working late.

       All service contract personnel have background security checks, with the exception of the
       cleaning staff.

       Recommendation: The Department of Justice report cites background security checks
       and/or established security control procedures for service contract personnel. We
       recommend that the controls over the cleaning staff be strengthened by limiting access
       to sensitive areas to designated cleaning staff only. A block of keys should not be given
       to all cleaning personnel. In addition, the cleaning staff utilizes a work area that houses
       some of the control panels to the Kastle security system. We recommend locking access
       to these controls so the cleaning staff cannot override the Kastle security system.

       Construction/Renovation: Mylar film is required on all exterior windows per the
       Department of Justice report. However, there is no Mylar currently on the windows in
       the ITC building.


                                      PRIOR FINDINGS

According to our review of the documents listed in the Methodology section of our report, the
following are the significant fmdings discussed in those previous documents in connection
with ITC security:

GSA REPORT DATED JUNE 30, 1995:

1.     Janitorial personnel do not have security background checks. We addressed this in our
       section entitled Administrative Procedures. Our recommendation was to limit access to
       certain cleaning personnel; do not give 100% access to all cleaning personnel. The GSA
       recommends initiating action with the landlord to have background checks conducted for
       the cleaning personnel. We concur with this if feasible to negotiate the change with the
       landlord.


                                                8
2.     Exterior lighting is inadequate. We have included in findings under the section Lighting
       a comment about the illumination level of exterior lighting that the GSA also commented
       on. GSA indicated a rear light was not working. That deficiency had been corrected at
       the time of our review.

3.     Employee and visitor identification system is inadequate. This comment relates to the
       lack of identification and escorts for those entering the commercial spaces. This situation
       cannot be changed without re-negotiating the lease with the landlord as ITC does not have
       control over the commercial tenants. Therefore, this situation has not been corrected. A
       funding request was made on September 21, 1995, to GSA, to lease the entire building.

4.     Exterior surveillance is inadequate concerning CCTV monitoring. This is discussed in
       our report under the section CCTV Monitoring.

5.     Search and screening of vehicles in the parking garage is inadequate. This is discussed
       in our report under the section Perimeter Security.

6.     Signs are required that indicate searches of persons and packages is a possibility. We
       addressed the requirement to post signs concerning the 24-hour surveillance under our
       section - Entrance/Exits. The GSA comment concerning search of persons and packages
       may need to be negotiated with the landlord since ITC does not have control over the
       commercial space. We noted in the Entrance/Exit section of our report that such signs
       should be placed in ITC leased space.

7.     Credit Union Intrusion Detection System is inadequate. This has been corrected.

8.     Memorandum of Understanding with commercial tenants should be obtained. This would
       need to be negotiated with the landlord. The GSA recommends seeking alternative space
       if the landlord does not agree to the security changes recommended.

GSA REPORT DATED FEBRUARY 22, 1993:

All findings have been properly addressed and corrected or have been included again in the GSA
report dated June 30, 1995. (See the discussion in the previous section).

INSPECTOR GENERAL REVIEW OF USITC's LOCAL AREA                                      NETWORK
ADMINISTRATION AND CONTROLS DATED SEPTEMBER 17, 1992:

A building security finding in that report concerned the lack of deactivation of electronic keys
upon termination of employment. This deficiency has been corrected.

INSPECTOR GENERAL REVIEW OF USITC's INFORMATION SECURITY PROGRAM
DATED SEPTEMBER 28,1990:

Findings in that report concerning building security included:

•      Issuing the same type of identification badges to individuals with and without security
       clearances

                                               9
•      Weaknesses concerning control of safe combinations

•      Development of emergency plans

These findings have been adequately addressed and the deficiencies have been corrected.

CONCLUSION:

ITC has an effective building security program in place. However, several areas have been
addressed that highlight· deficiencies that need improvement or require modification. The
Department of Justice report has set minimum security standards for Federal agencies and
departments. Their report and the President's memorandum provide ITC an opportunity to obtain
additional funding to bring the ITC into compliance with the standards for a Level IV building.




                                              10
   1
£1~_I   ergcncy.E Xl. t, 1               Nort
                                                                               i

                                                                            esT.




 Emergerl C'Y E:x j t
                                          f
                                                   h '_.\
                                         ~ i O ! .L .r; t (.' (\
                                    --   N           \

                                                                           East
   I D. t ern a l.i () [1 a 1 ' i r a, d e (
                                I              I   ()TTl ITl i s ~< ' ()
          [)11,\sic'a]       Sc,'c'llrity'               urv ey
             Lo bby -     I'l'C     l   I
                                   E'In rra n c e
I11 t (I t  at j 0 1 (lIT J' C C~ 0 r11      11 iss i 0
        I)h Ysic' {t Sec 11 J'} t J\l S l   ' \' (" .:\1
           Lo by                         Gu ar d Booth




                                 1-1 ,

t crn a t i o n a l                I J'a   (\ lJorn f'1
                                                                   I >~ ;~l ()
  Ph vsi:
   .   _   ~,'.   i   \.   "~l
                           LA              i, 1\,
                                             \            SU.]""     \
Stairvvell




SLairvvcll                -       }~                          DrC)I) 'off Box
  l ( r n" C'\{ t'! () n a' 11 r II" I ' r\.J..J ,-'r:» C 0 I)1!' "'-.;,'", "'-.;,"., >1 () 'n,
     '1
   0.'      ,     v.      ,                                         J   !          " ,        ,



      P }-1 V sic a 1 ~ ()(' r i t y S 1J \ \
                       De livcry ."P




                         Delivery    l)arking
             !
t.c r na L I OI1a
I     ....       . 1 I r Ci e C o m 11) .
                     ( I I '               .
                                        I SSlOD_
   Ph y-: i (':211 Sec' u 'i y Sur' v (' v
                               De l i ver vi/F) ax'l(ing
                                               ~'            L,
                                                                  nl ru n ce




                 Fa c e        ~.

Int. C~               n a1
               1 it IL10
                      '    -        'I'
                                     I t'   a d_e  0 Tfl \ iss j ()
                                                    (   j



          !)
          !        sica]            (I      uri: \ SlJ rv .V
                 ce        Loadi    cr
                                    b
                                         Doc




              F'ar.o       La ding Do c k
                                         .   .
111 Lern (t L10 n a 1 'J r a dee: 0 ill 11SS1C)
                       1



      Ph vsic al Securit \T SlJ vey
     SOl] Lh      Face                EJJlergency                  xit




                                      1
                   ,-. 2) C e                 J11 erg e 11 C'.\'
                   11                     1
                                -~-   I   I




[ [1 t   e r II (:1 Li () a 1 T r (J ceo    1 iss i 0
          Phy s: ca l Se c u r i l.y SlJ 1'\C;Y
                              i   /\,I'·'C··-'   air!
                                                    . 1 r'\
                                                        \. j   -: ..
                                                               U       (1ij.i   g".


In t er tl { I Lion a i r ad C' (1 0 m . iss j o r:
      Ph sica] ~(lcu_ri t \ Su_rve \
                                                         Appendix




UNITED STATES INTERNATIONAL TRADE C01vHvIISSION

                     \Vi\SlfINGTO~.   DC 20436




February 26, 1996                                  AD-T-038

MEMORANDUM

TO:          Chairman Watson

FROM:        Stephen A. McLaughlin, Ac*n~ ~~~~~
             Office of Administratiqn ~
SUBJECT:     Physical Security Audit


The Office of Administration concurs with the findings and
recommendations of the Inspector General in her Review of
Building Security. In consultation with the Inspector
General, we have dete~ined to defer establishing a
definitive schedule for implementation of the
recommendations, including the procurement of additional
equipment, until at least March 15, at which time we hope
to have an appropriation for 1996. We do note, however,
that the 1997 budget request includes funding for metal
detectors and x-ray equipment. Moreover, most of the
recommendations in the report that involve expenditure of
funds are the subject of pending requests from the
Commission to GSA. The Justice Department recommendations
for a Level IV building also require the expenditure of
significant funds, the source of which is not yet clear.
We are awaiting notification from GSA regarding our
request •



                                                 Disapproved


cc:     The Commission
        The Inspector General
        Director, Office of Management Services
        Chief, Facilities Support Division
